<html>
<title> - THE ENERGY WATER NEXUS: DRIER WATTS AND CHEAPER DROPS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                        THE ENERGY WATER NEXUS:
                     DRIER WATTS AND CHEAPER DROPS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2019

                               __________

                            Serial No. 116-5

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-403PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="92f5e2fdd2f1e7e1e6faf7fee2bcf1fdffbc">[email&#160;protected]</a>                        
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                NEAL DUNN, Florida
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  VACANCY
CHARLIE CRIST, Florida               VACANCY
SEAN CASTEN, Illinois
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                         Subcommittee on Energy

                HON. CONOR LAMB, Pennsylvania, Chairman
DANIEL LIPINKSI, Illinois            RANDY WEBER, Texas, Ranking Member
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              NEAL DUNN, Florida
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
JERRY McNERNEY, California           MICHAEL CLOUD, Texas
BILL FOSTER, Illinois
SEAN CASTEN, Illinois
                         
                         
                         C  O  N  T  E  N  T  S

                             March 7, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Conor Lamb, Chairman, Subcommittee on
  Energy, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     6
    Written Statement............................................     8

Statement by Representative Randy Weber, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    14

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    16
    Written Statement............................................    17

Statement by Representative Frank D. Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    20
    Written Statement............................................    21

                               Witnesses:

Dr. Vincent Tidwell, Principle Member of the Technical Staff at 
  Sandia National Laboratories
    Oral Statement...............................................    24
    Written Statement............................................    27

Kate Zerrenner, Senior Manager at Environmental Defense Fund
    Oral Statement...............................................    32
    Written Statement............................................    34

Dr. Richard Bonner, Vice President of Research and Development at 
  Advanced Cooling Technologies
    Oral Statement...............................................    43
    Written Statement............................................    45

Dr. Ramen P. Singh, Associate Dean for Engineering at OSU-Tulsa, 
  and Professor and Head of the School of Materials Science and 
  Engineering at Oklahoma State University
    Oral Statement...............................................    49
    Written Statement............................................    50

Dr. Michael E. Webber, Chief Science and Technology Officer at 
  ENGIE
    Oral Statement...............................................    54
    Written Statement............................................    57

Discussion.......................................................    63

 
                        THE ENERGY WATER NEXUS:
                     DRIER WATTS AND CHEAPER DROPS

                              ----------                              


                        THURSDAY, MARCH 7, 2019

                  House of Representatives,
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Conor Lamb 
[Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Lamb. This hearing will come to order. Without 
objection, the Chair is authorized to declare a recess at any 
time.
    Good morning. Welcome to today's hearing titled, ``The 
Energy Water Nexus: Drier Watts and Cheaper Drops.'' I'd like 
to thank our panel of witnesses for being here today. I'd also 
like to thank both Chairwoman Johnson and Ranking Member Lucas 
for introducing the Energy and Water Research Integration Act 
of 2019, which addresses the energy-water nexus issues that 
we'll be discussing today. I think it is tremendous that our 
Committee's leadership has started this year off with a major 
piece of legislation that is bipartisan, and I commend them for 
that.
    The connection between energy and water is indisputable. It 
takes a lot of water to produce energy and a lot of energy to 
produce clean water. Large-scale power plants mainly use water 
as a cooling source. I've seen this back home. We have a 
nuclear power plant and a coal-fired power plant right next to 
each other in my district that use a lot of water on the Ohio 
River. A substantial amount of this is used to produce other 
common fuel sources like oil and gas, which produces a lot of 
wastewater, also a significant issue in western Pennsylvania 
where I'm from where we have a lot of natural gas drilling 
taking place.
    The Energy and Water Research Integration Act of 2019 aims 
to decrease energy and water intensity when we use these 
resources by integrating water production use and treatment 
considerations throughout DOE's (Department of Energy's) R&D 
(research and development) programs. Reducing the water 
intensity of energy and the energy intensity of water 
production will help our environment and, most importantly, it 
should decrease the utility bills for our people back home.
    This is not a new field of research. Congress instructed 
DOE to create a program to address this back in 2005 with the 
Energy Policy Act, and in 2012 the Department created the 
Energy-Water Nexus Crosscut team. This created a plan for 
future work in research at DOE. They have held a series of 
roundtable discussions, including some with the witnesses who 
are here today, and we thank you for filling us in on those. 
Unfortunately, this team was disbanded at the beginning of this 
Administration.
    The Administration has recently launched an initiative that 
focuses on water production and announced two new funding 
opportunities for desalination, but these are only some 
components of I think the overall nexus that we need to be 
addressing.
    So restoring a focus to this connection we view as crucial. 
Global energy consumption and water demand will continue to go 
up and likely will for decades into the future. This is 
exacerbated by climate change, meaning it's going to get worse 
and more difficult to solve, which is why I think we need a 
whole-of-government and of course bipartisan approach on this.
    The relationship between energy and water we also know is 
very specific to particular regions. In the west when 
temperatures are high, water use for cooling power plants is 
much less efficient or not even available when there are severe 
droughts. Sea-level rise affects the water sources along the 
coast, increasing the need for energy-efficient water treatment 
capabilities. Weather can affect the demand for energy like 
extreme winter weather events experienced back home in my 
district where we have plenty of water but often have some very 
cold temperatures. This threatens both the energy and water 
infrastructure.
    So efficiency measures would help mitigate all of these 
problems, and that's where our discussion will focus today. We 
are going to look at the nexus between energy and water, but 
also talk about some solutions that are innovative. One of the 
witnesses we have here today, Dr. Richard Bonner, has led many 
projects related to water use and energy production at a small 
business in my home State of Pennsylvania, so I will use my 
prerogative to welcome you, Dr. Bonner, as a fellow 
Pennsylvanian. We're thrilled to have you here. His projects 
have been funded through various government programs such as 
ARPA-E (Advanced Research Projects Agency - Energy), which we 
view as a program that's vital to our energy research and 
development. We need more innovative projects like yours in 
this field, and we all look forward to your testimony.
    [The prepared statement of Chairman Lamb follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. And now the Chair recognizes my Republican 
colleague and friend, Mr. Weber, for an opening statement.
    Mr. Weber. Thank you, Mr. Chairman.
    Today, we will hear from a panel of experts on the 
challenges in the U.S. energy-water nexus and discuss the 
Department of Energy's (DOE) role in enabling fundamental 
research and development in support of these critical 
resources.
    A sustainable supply of both energy and water is essential 
to the maintenance of U.S. economic health, environmental 
stability, and national security. Water is needed to produce 
energy, and energy is required to extract, treat, and transport 
water. This fundamental and tightly intertwined relationship is 
often referred to as the energy-water nexus. We see the energy-
water nexus at work in the production of fossil fuels and 
biofuels, and in the functioning of thermoelectric power plants 
across our great country.
    Historically, energy and water systems in the United States 
have been planned and managed separately. Today, it is clear 
that no matter what the future cross-section of the U.S. energy 
market looks like or will look like, we will need to develop an 
integrated approach to these two systems. A number of Federal 
agencies have supported research and development efforts 
related to the energy-water nexus, including the Environmental 
Protection Agency (EPA), the Department of the Interior (DOI), 
and the Department of Energy (DOE).
    With its strong expertise in energy technologies and world-
leading, I might add, fundamental science capabilities, DOE is 
uniquely suited to lead the national energy-water nexus 
conversation. The Department enables high level use-inspired 
basic research that supports our understanding of today's 
evolving energy-water nexus throughout its national laboratory 
system.
    At the National Renewable Energy Laboratory (N-REL), DOE 
funds research into a wide portfolio of advanced technology 
solutions to today's energy-water nexus concerns, including 
desalination using renewable energy technologies and the 
reduction of water needs for solar technologies.
    At the National Energy Technology Laboratory (NETL), DOE 
funds research in advanced cooling and water treatment 
technologies, nontraditional water use, and modeling tools to 
evaluate the impact of fossil energy development on both 
surface and subsurface water resources.
    And at Sandia National Laboratories--you all have heard of 
that, right? At Sandia National Laboratories researchers are 
focused on creating new water supplies using advanced 
technologies. Sandia also supports research that develops and 
provides decisionmaking tools to U.S. institutions that control 
the supply and demand of both water and energy.
    Recently, the Trump Administration has taken a number of 
steps to prioritize research in the energy-water nexus. In 
October 2018, Secretary Rick Perry announced the launch of a 
DOE-led Water Security Grand Challenge, which will incentivize 
the development of new technologies to address critical U.S. 
water security challenges.
    Then in December, DOE announced $100 million in funding for 
an Energy-Water Desalination Hub focused on early stage 
research and development. This hub will explore nontraditional 
water sources and provide desalination technologies that are 
both cost-competitive and energy-efficient.
    I want to thank the Chairman for holding this hearing today 
and the witnesses for providing their testimony, and I'm 
looking forward to learning more about this important research 
in our hearing today.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Weber follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you. And the Chair now recognizes 
Chairwoman Johnson for an opening statement.
    Chairwoman Johnson. Thank you very much, Mr. Chairman. And 
good morning and welcome to our witnesses.
    I'm delighted that we're holding this hearing--it's very 
timely--to bring attention to the interplay between water, one 
of our most valuable natural resources, and our energy systems. 
Our energy and water systems are intrinsically interconnected. 
Not only does energy play an important role in the extraction, 
treatment, and transportation of water, but water is also used 
in many stages and types of electricity generation.
    In my home State of Texas, we face a multitude of issues at 
the energy-water nexus, for example, large amounts of water are 
used during the process of fracking for oil and gas extraction. 
However, the needs of the large oil and gas industry can be at 
odds with the needs of the agricultural community, where 
farmers struggle to conserve water and energy to save costs, 
especially in the face of increasingly extreme droughts in the 
State. Of course, water is an important resource for energy and 
agriculture, but it's also critically important for the people.
    My own city of Dallas, which is inland, is the fastest-
growing metropolitan area in the United States, which puts a 
strain on our already limited water resources in the State. 
Moreover, all of these issues are exacerbated by our rapidly 
changing climate. These days, we regularly withstand harsh 
droughts, extreme heat, hurricanes, and wildfires. This uptick 
is extreme--in extreme weather events is causing water, food, 
and energy insecurity, which only increases the urgency with 
which we must act.
    For these reasons, I have been working for many years in 
Congress to address this important issue through my work in 
developing the Energy and Water Resource Integration Act. This 
Congress, I reintroduced that bipartisan bill with my colleague 
and friend Ranking Member of the Full Committee, Lucas. It 
instructs the Department of Energy to incorporate the 
consideration of water use and treatment into all of its 
relevant research, development, and demonstration programs, and 
to establish additional coordination functions to ensure that 
we are giving this issue adequate attention and resources 
moving forward.
    I want to thank you, Mr. Lamb, for convening this panel. 
I'm very pleased to see the strong representation of witnesses, 
and especially from Texas today. I look forward to having a 
robust discussion and I--as I complete my statement, I will say 
that I do have to attend a Subcommittee on Water in the 
Transportation Committee, so I will dip out in a little bit.
    Thank you, and I yield back.
    [The prepared statement of Chairwoman Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you, Madam Chairwoman.
    And the Chair now recognizes Ranking Member Lucas for an 
opening statement.
    Mr. Lucas. Thank you, Chairman Lamb, for holding this 
hearing today, and thank you to our witnesses for being here.
    There might not be two more important and interconnected 
pieces in our daily health and economic stability than water 
and energy. Water is used to produce energy, and energy is 
required to treat and distribute clean water. Both are 
essential, and both depend on the other.
    That is why this Congress I joined my colleague, Chairwoman 
Johnson, in introducing H.R. 34, the Energy and Water Research 
Integration Act, which will be the subject of today's hearing. 
This bill will improve our understanding of the relationship 
between water use and energy production while encouraging the 
development of innovative technologies that could improve 
efficiency and production in both sectors.
    It's important to remember that many of the issues 
surrounding the energy-water nexus are regional and so require 
consideration of local factors. For example, in Oklahoma 
agriculture is clearly a third part of the relationship. While 
agriculture is the single largest consumer of water, it is also 
a critical piece of the national economy and contributes 
indirectly to the energy sector through the production of 
biofuels.
    Additionally, oil and gas operations, especially horizontal 
drilling and hydraulic fracking, which are vital in the pursuit 
of cleaner energy markets, require large volumes of water and 
can also produce water. While this presents localized water 
treatment challenges, it also leads to opportunities for 
beneficial reuse of water through fluid lifecycle management.
    Today, Raman Singh will provide--Doctor I should say--Raman 
Singh will provide a valuable perspective from the research 
community on ways to improve water management and energy 
efficiency by developing carbon- and water-neutral fossil 
energy technologies. I look forward to hearing how his 
collaborative multi-university effort, led by Oklahoma State, 
can conduct transformative research while working with industry 
to safely implement new approaches to the field. This research 
can also complement the work being conducted at our national 
labs.
    I'm pleased to see DOE pursuing work in this area, both 
through the multi-agency Water Security Grand Challenge and the 
recently announced DOE Energy-Water Desalination Hub. By 
focusing on early stage R&D, this hub will work to develop 
novel filtration membranes that can transform brackish or 
produced water into water communities can reuse. Because of the 
complex relationship between energy and water systems, this 
challenge will require a multi-disciplinary approach. 
Interactions between chemists, engineers, geologists, 
legislators, and others will be required, along with 
collaboration between government, industry, and universities. I 
believe the legislation introduced by Chairwoman Johnson and 
myself can help to streamline and prioritize this work.
    I thank our witnesses for being here today, and I look 
forward to our discussion this morning. And with that, I yield 
back, Mr. Chairman.
    [The prepared statement of Mr. Lucas follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you, sir.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    Now, I'd like to introduce our witnesses. First, we have 
Dr. Vincent Tidwell, who is a Distinguished Member of the 
Technical Staff at Sandia National Laboratories. Dr. Tidwell 
has more than 20 years of experience conducting and managing 
research on basic and applied projects in water resource 
management, nuclear and hazardous waste storage and 
remediation, and collaborative modeling. Currently, he is 
leading several studies that address issues concerning the 
energy-water nexus, including support for long-term 
transmission planning in the western and Texas 
interconnections, climate impacts on energy-water relations, 
and international energy-water pinch points. Dr. Tidwell was a 
lead author for the Land, Water, Energy cross-sectoral chapter 
of the 2014 National Climate Assessment.
    Ms. Kate Zerrenner--did I get that right?
    Ms. Zerrenner. Close enough.
    Chairman Lamb. Close enough. I'm sorry about that. Is a 
Senior Manager at the Environmental Defense Fund (EDF). Ms. 
Zerrenner leads EDF's Texas--can you just say it so that I make 
sure I get it right?
    Ms. Zerrenner. Zerrenner.
    Chairman Lamb. Zerrenner, thank you. Ms. Zerrenner leads 
EDF's Texas and national energy-water nexus efforts and 
develops and implements strategies to promote energy and water 
efficiency in Texas. Her work aims to address financial, 
regulatory, and behavioral barriers to advancing clean energy 
options that reduce climate change impacts, water intensity, 
and air pollution.
    Prior to joining EDF, Ms. Zerrenner worked at the U.S. 
Government Accountability Office analyzing U.S. action on 
climate change and the voluntary carbon offset market, SAIC, on 
climate change projects for the U.S. Department of Energy and 
the U.S. Environmental Protection Agency and the U.S. 
Department of Energy.
    Dr. Richard Bonner is the Vice President of Research and 
Development of Advanced Cooling Technologies. Dr. Bonner has 
led research programs involving the thermal and fluid sciences, 
including several programs related to the energy-water nexus. 
He has published more than 45 papers, one patent, and four 
patent applications. Dr. Bonner has also led advanced thermal 
projects development programs from concept to production for 
over 125 customers covering a wide range of commercial 
industries.
    We also have Dr. Michael Webber, who's based in Paris, 
France, where he serves as the Chief Science and Technology 
Officer at ENGIE, a global energy and infrastructure services 
company. Dr. Webber is also the Josey Centennial Professor in 
energy resources and Professor of mechanical engineering at, 
you guessed it, the University of Texas at Austin. There's a 
heavy Texas imprint on our hearing today. Mr. Ranking Member, 
if I didn't know any better, I would suspect a conspiracy was 
afoot. But we do have a Pennsylvanian on the panel, so I know 
we're safe.
    Mr. Weber. Yes, but he spells his name wrong.
    Chairman Lamb. Dr. Webber is the author of Thirst for 
Power: Energy, Water, and Human Survival published in 2016. 
We're guessing he picked up the second B somewhere in Paris 
probably, and then that switch to Texas is where it falls off.
    The Chair now recognizes Ranking Member Lucas for the 
introduction of our final witness.
    Mr. Lucas. Thank you, Chairman.
    It is with great pleasure I introduce one of my 
constituents as our witness today, Dr. Raman Singh. He holds a 
number of academic positions, including Associate Dean of 
Engineering at Oklahoma State-Tulsa; Head of the School of 
Materials Science and Engineering at the College of 
Engineering, Architecture, and Technology at Oklahoma State 
University (OSU); and the Director of the Helmerich Advanced 
Technology Research Center at OSU-Tulsa campus.
    His research has been funded by the National Science 
Foundation, NASA (National Aeronautics and Space 
Administration), the Oklahoma Center for Advancement of Science 
and Technology, the Oklahoma Transportation Commission, the 
U.S. Army Research Office, the Department of Energy, and 
industry. And prior to joining OSU, Dr. Singh was a 
postdoctoral scholar at the California Institute of Technology, 
a faculty member of the State University of New York at Stony 
Brook. Dr. Singh holds M.S. and Ph.D. degrees in mechanical 
engineering and applied mechanics, both from the University of 
Rhode Island, and a bachelor of technology degree in mechanical 
engineering from the Indian Institute of Technology.
    Thank you, Dr. Singh, for both being at Oklahoma State and 
being here with us today. And I yield back, Mr. Chairman.
    Chairman Lamb. Thank you, Ranking Member.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record for the hearing. When you all have 
completed your spoken testimony, we will begin with questions. 
Each Member will have 5 minutes to question the panel.
    We will start with Dr. Tidwell.

                TESTIMONY OF DR. VINCENT TIDWELL,

          DISTINGUISHED MEMBER OF THE TECHNICAL STAFF,

                  SANDIA NATIONAL LABORATORIES

    Dr. Tidwell. Chairman Lamb, Ranking Member Weber, and 
distinguished Members of the Committee, I thank you for this 
opportunity to testify here before you this morning on this 
critical issue of energy and water nexus. Again, my name's 
Vincent Tidwell, and I'm with Sandia National Laboratories.
    I want to start on a personal note as I had the opportunity 
to view the energy-water nexus firsthand. This past week while 
I was on vacation I traveled from Albuquerque, New Mexico to 
Park city, Utah. And on this trip I crossed the San Juan, the 
Colorado, and the Green Rivers, along with the Rio Grande. I 
also passed numerous power plants, hydropower dams, oil and gas 
plays and coal mines. The relation between these important 
resources was evident. Equally evident was the critical role 
these resources play in the economy, livelihood, culture, and 
environment of the communities that they serve. These resources 
are our heritage, so thank you for your concern and interest in 
securing these resources for generations to come.
    There are three points I'd like to make this morning. First 
is a challenge. Energy-water nexus is expressed in varied ways 
that often depend on location. Second is an opportunity. We can 
manage the nexus through integrated planning involving 
coordinated action between water and energy managers. My third 
point again highlights an opportunity, in this case, to harness 
the deep expertise of our national laboratories, academia, 
industry, and other Federal agencies to develop advanced water 
treatment technologies to make new sources of water available 
at competitive costs.
    To my first point, place really matters when it comes to 
the energy-water nexus. For example, in the west we've had 
difficulty in siting new power plants due to limited water 
supply. While in the east, we have had problems in times of 
drought with existing power plants having to operate 
differently due not to limited water supply but because of 
elevated water temperatures. Drought affects hydropower 
everywhere, but it's a particular issue in the northwest where 
hydropower counts for over 60 percent of all generation 
capacity.
    On the other end of the spectrum we see penetration of wind 
in the plains States and solar in the southwest, which has 
drastically changed and reduced our energy-water burden in 
these regions. This variation simply reflects the geographic 
differences in our energy, water, and climate systems, 
underscoring the need for deep understanding of these linkages 
with broad nationwide participation.
    To my second point, integrated planning provides an 
important platform for managing the nexus. As a personal 
example, I've led a team of researchers, including my colleague 
Dr. Webber to bring State water managers together with energy 
managers from the Nation's three interconnections to help 
integrate water into their long-term transmission planning, 
specifically identifying where water might limit the siting of 
new thermoelectric power generation or where drought might 
impact the operations of existing power plants or hydropower 
assets.
    Beyond integrated resource planning, though, we need to 
integrate waste stream management. Significant quantities of 
water and energy are required to manage waste, including 
emissions scrubbers, carbon capture systems, and produced water 
management. But we don't have to consider these as waste as new 
technologies are emerging to extract value from these streams 
such as latent heat, biogas, potable water, and commercial 
chemicals.
    My final point again addresses an opportunity, that of 
advanced water treatment technology. In 1961 President Kennedy 
said if ``we could ever competitively at a cheap rate get fresh 
water from salt water, it would be in the long-range interest 
of humanity, which would really dwarf any other scientific 
accomplishment.'' Today, there are over 18,000 desalination 
plants and operations around the world, but desalination is 
still not cheap. Why? The source waters are highly variable. 
We're also having to deal with other contaminants beyond salt, 
as we find in our municipal industrial wastewaters, produced 
water, and agricultural return flows. There's also the 
confounding issue of concentrate management. That is, what do 
we do with the salts when we separate them?
    Toward this need, the DOE has issued a call for an energy-
water desalination hub, which will invest in early stage R&D. 
This provides an unprecedented opportunity to coordinate 
expertise across Federal, academic, and industrial research 
complexes to develop new materials and new processes that will 
fundamentally change the way we treat water in the future.
    In conclusion, the energy-water nexus is a complex and 
nuanced issue. While we are making progress, more work is 
needed. And I want to stress that we have the opportunity to do 
more than simply avoid future problems but rather we can 
radically change the way our energy systems depend on fresh 
water while creating new sources of water at competitive 
prices.
    Thank you for convening this hearing, and I look forward to 
your questions.
    [The prepared statement of Dr. Tidwell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you, Dr. Tidwell. Ms. Zerrenner?

                  TESTIMONY OF KATE ZERRENNER,

           SENIOR MANAGER, ENVIRONMENTAL DEFENSE FUND

    Ms. Zerrenner. Thank you. Chairman Lamb, Ranking Member 
Weber, Members of the Committee, thank you for inviting me here 
today.
    Again, my name is Kate Zerrenner. I'm a Senior Manager of 
Energy-Water Nexus Initiatives at Environmental Defense Fund, 
Texas office.
    Our energy choices matter, so coal, natural gas, and 
nuclear all use vast amounts of water. Solar PV, wind use 
negligible amounts, energy efficiency uses none, and that 
matters because about 85 percent of our current energy 
resources come from nuclear and fossil fuel, and that requires 
about 133 billion gallons of water per day or about 41 percent 
of total U.S. freshwater withdrawals.
    And the energy-water nexus is a cascading problem. And with 
extreme weather energy-water nexus can quickly turn into 
energy-water collisions. With climate change, this is 
intensifying the extremes in our weather. For example, in a 
drought, waters for cooling is more limited, reducing the power 
needed to move water, air conditioning spikes during hot and 
dry days increasing the demand for power, which increases 
demand for diminishing the water supply to cool that power 
system. And this matters because of resilience.
    So when we're looking at States like mine like Texas, we 
suffered a multiyear drought from 2010 to 2015, which was only 
ended by catastrophic flooding that we endured for 3 years, 
culminating in Hurricane Harvey. So building resilient systems 
matters. It matters to make sure that, as we see these drought 
and flood cycles, which we're used to in Texas but they're 
getting more extreme. So like an athlete on steroids, climate 
change may not necessarily be causing these extreme weather 
events, but they are enhancing their performance.
    So some of the ways we've addressed this in Texas is we're 
looking at some specific solutions. Two legislative sessions 
ago--you may remember this, Ranking Member--we passed a bill 
requiring the State to look at using solar and wind to 
desalinate brackish groundwater on State-owned lands. The study 
was finished and done by the Webber Energy Group and found 
nearly 200 cost-effective sites on State-owned lands, which is 
significant because about 98 percent of the State of Texas is 
privately owned, so 194 cost-effective sites for using solar 
and wind to desalinate brackish groundwater.
    We've also--EDF has partnered with the Pecan Street 
Project, which is a nonprofit that looks at energy and water 
from the smart technology perspective, and we looked at the 
end-user results of what the energy intensity of our water 
systems and the water intensity of our energy systems in the 
home are. A lot of people aren't aware of the amount of water 
they're using when they turn their clothes dryer on, for 
example. And one of the things we found is that in homes with 
solar panels, for example, the water footprint of those homes 
decreased by nearly 80 percent with solar panels on their 
homes. So there is a significant impact on our water in terms 
of how we use our energy and vice versa.
    The key to all of this is data. That Pecan Street Project 
was the first of its kind to do very granular data collection 
so that we actually know what we're looking for. We know what 
we're trying to address. EDF partnered with the Texas Army 
National Guard to model and map 60 of its 90-plus installations 
across the 10 climate zones of Texas. And what we did is we 
took the climate data in a water scarcity solar potential, wind 
potential, energy efficiency potential, geothermal potential, 
and electricity prices and overlaid all of these things 
together so we could give the Texas Army National Guard the 
data they needed to invest smartly into what made the most 
sense in terms of the water scarcity, the solar potential. For 
example, El Paso came out on top with water scarcity and solar 
potential, so they can then take that to the appropriators and 
say we need to invest in solar in our installations in El Paso, 
and then they can use money that would otherwise be spent on 
electricity bills to be spent on things like training and 
equipment. So there are real-world implications for the choices 
we make in terms of our water and our energy choices.
    The Federal Government has a fantastic role to play here. 
Data collection, standards, streamlined reporting, all of those 
things can be done with--H.R. 34 helps to lay that groundwork.
    In 2011 Chairwoman Johnson requested GAO (Government 
Accountability Office) to do a report on the energy-water 
nexus. I would say an updated report of that nature would be 
warranted. It has been 8 years. A comprehensive review of both 
Federal programs and funding streams throughout the Federal 
Government could help increase the coordination across the 
Federal agencies that work on energy-water nexus issues.
    And with that I close, and I look forward to any questions. 
Thank you.
    [The prepared statement of Ms. Zerrenner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you. Dr. Bonner?

                TESTIMONY OF DR. RICHARD BONNER,

           VICE PRESIDENT OF RESEARCH AND DEVELOPMENT,

               ADVANCED COOLING TECHNOLOGIES INC.

    Dr. Bonner. I would first like to thank the Committee and 
its leadership for the opportunity to testify on the energy-
water nexus.
    I've worked at Advanced Cooling Technologies, a small 
business located in Lancaster, Pennsylvania, for over 13 years. 
The company started in 2003 and has grown to 130 employees. The 
company was predominantly funded through the government-
sponsored research programs in its early days. Today, it still 
relies on government funding for many of its new technology-
development initiatives. I currently serve as the Vice 
President of R&D at Advanced Cooling Technologies.
    I've closely led several research programs related to the 
energy-water nexus while serving as a principal investigator. 
In the ARPA-E ARID (Advanced Research in Dry cooling) program, 
I led the development of a technology that could effectively 
cool power plants using air instead of water. Our technology is 
analogous to a DVR but for heat. We demonstrated that you can 
store cold energy at night and later cool the power plant 
during the day when the ambient temperature is warm and the 
electricity demand from the grid is the greatest.
    Through the Department of Energy's Small Business 
Innovative Research program, we've developed non-wetting 
coatings and surface structures to improve condensation to more 
effectively remove heat from the steam circulating through 
power plant steam turbines.
    In another effort funded through the Department of Energy's 
Fossil Energy Crosscutting Research program, we are developing 
longer-life non-wetting coatings that are capable of being 
replenished to maintain their cooling effectiveness for 
decades.
    Researchers in our R&D group are looking to solve other key 
water issues as well. Through the Department of Energy's Small 
Business Innovative Research program, we're looking at new ways 
to desalinate water. Through another Department of Energy-
funded program, we are developing new ways to collect sunlight 
to use the energy to directly drive the desalination of brine.
    Finally, for the U.S. Department of Agriculture we're 
looking at ways to desalinate brackish water and use the water 
to directly feed the roots of plants by using a system of 
underground plumbing. This innovation may make it possible for 
the agricultural industry to tap into the vast amounts of 
brackish water available, which will free up freshwater 
supplies for other critical applications.
    Recently, I was invited by the Arizona Public Service 
Company to tour the Palo Verde generating station. Palo Verde 
is the Nation's largest net power generating station. The 
nuclear power plant is located in the desert regions of 
Arizona, not near any bodies of water, which makes it unique. 
Their current water solution is quite interesting. The power 
plant water is completely supplied by treated sewage that is 
purchased from several local large municipalities. However, the 
demands on this water supply are causing the municipalities to 
increase the price of this precious water supply, which will 
ultimately lead to an increase in the cost of power for the 
region. I met with their senior engineering team to present 
some of the water reduction and cooling solutions that we have 
developed, and we hope to begin working with them in the next 
few months.
    Without the substantial funding and experience gained 
through the numerous government-sponsored research programs 
that I mentioned, we would not be talking with the Arizona 
Public Service Company to solve their water and cooling 
problems. The government-sponsored funds are critical to small 
businesses such as ours so we can take our ideas and mature 
them to the levels demanded by the marketplace.
    Finally, I would like to discuss some recommendations to 
the Committee about some legislative features that would help 
industry better solve the energy-water nexus problem. I want to 
first remind and impress upon the Committee with--the scale 
with which power plants operate. It is simply massive. Further, 
power plants are not built every day. As a matter of fact, 
they're not built often at all in the United States anymore. 
This makes the often-mentioned R&D valley of death that much 
more deadly for companies, universities, and national labs as 
they try to commercialize their research in this area.
    So how do you go from the bench top in a lab to power 
plant-sized systems, and how can the government help? I suggest 
that any legislation in this area should aim to address these 
questions by allowing some portion of the funding through 
scale-up and subscale demonstrations perhaps as a follow-on for 
successful programs. I have seen this follow-on type of program 
work very well in the SBIR (Small Business Innovation Research) 
programs. I could see something similar for some of your other 
funded efforts.
    I also want to discuss the cost-share requirements that 
have been common for many of the Department of Energy-funded 
programs as of late. Given the difficulties of scaling up and 
the large follow-on investment that is required by companies to 
reach utility scales, the R&D cost-share requirements seem to 
unnecessarily hinder industry's flexibility to use financial 
resources where they are needed most. I recommend that the cost 
share be eliminated or at the very least changed to allow the 
companies to get their cost-share credit through non-R&D-based 
investments. These alternative investments could include 
capital spending on related production equipment, intellectual 
property protection, or perhaps sales and marketing.
    It has been my privilege to testify in front of you today. 
Thank you again for the opportunity. I look forward to 
answering any of your questions.
    [The prepared statement of Dr. Bonner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you. Dr. Singh?

                TESTIMONY OF DR. RAMAN P. SINGH,

        ASSOCIATE DEAN FOR ENGINEERING AT OSU-TULSA AND

       PROFESSOR AND HEAD OF SCHOOL OF MATERIALS SCIENCE

           AND ENGINEERING, OKLAHOMA STATE UNIVERSITY

    Dr. Singh. Good morning. It's my honor and privilege to be 
here. I'm the Head of the School of Materials Science and 
Engineering at Oklahoma State University, and I also direct the 
Helmerich Research Center. I do have to apologize. I'm not a 
native Oklahoman, but in my own defense, I got to Oklahoma as 
soon as I could, and I've managed to raise two daughters in 
Tulsa. And they will both end up going to college in Oklahoma 
right now.
    I'm leading and building a consortium of multiple 
universities led by Oklahoma State involving Caltech, the 
University of Utah, Northeastern State University, and the 
University of Tulsa, along with several industry partners and 
Sandia to look at the safety and sustainability of fossil fuel 
production and consumption. And it is with regards to that that 
I'm going to talk about the produced water and the water issue 
today, which is only one aspect of what we are looking for in 
our consortium.
    My perspective is that the prosperity of any nation, 
prosperity of our Nation ultimately depends on our ability to 
safely and sustainably produce and consume energy. And the bulk 
of our energy today, even though you don't realize it, comes 
from fossil fuels. There will be a future where we will 
displace these fossil fuels with renewables, but there has to 
be a bridge. And the way we see technology today, this bridge 
primarily comes from natural gas produced through hydraulic 
fracturing. It's a significant resource that we have. It's the 
cleanest-burning fossil fuel with the least impact on 
greenhouse gas production.
    But this is where water comes in because you require water 
to essentially break rock in terms of hydraulic fracturing. You 
require large amounts of water, and more often than not, this 
water is fresh water. And then the process itself produces 
water, which is known as produced water, which is stuff that 
comes out of the ground along with the production of shale oil 
and shale gas. And it is highly contaminated. It carries a lot 
of salt, and by itself, dealing with produced water has led to 
other engineering challenges by itself.
    There are three areas of technology that I want to focus 
on. The first one is the hydraulic fracturing process itself. I 
think there are significant opportunities in trying to minimize 
the amount of fresh water that's used in this process and at 
the same time increasing the efficiency in which we are able to 
recover materials.
    Right now, the recovery rates are typically 10 to 20 
percent, so we--and this is where all the projections are made, 
so we are recovering only about 1/10 of what is possible in 
terms of shale oil and shale gas. There is some research that 
has gone on. The way I look at it is water is not the only way 
to break rock. It's a good way and it's a simple way, but there 
are other ways which involve combination of rocks, and this is 
a research area that I have been focused on.
    The other aspect is what do you do with the produced water 
that comes out? Now, electrical or solar desalination of 
produced water is expensive. It's very highly energy-dense. But 
the idea that we're looking at is that we want to try and get 
it clean enough to drink. We don't have to get it clean enough 
to drink. We have to get it clean enough so that we can use it 
for something else and look upon it as a resource rather than a 
waste that needs to be disposed.
    There are a lot of membrane filtration technologies based 
on ceramic nonporous membranes that are being pursued. This is 
some work that we're doing at Oklahoma State. And the idea is 
that you get it to the point where the number of total 
dissolved solids--that's how you track how contaminated the 
water is--is down to a point where you could perhaps use it for 
industrial processes, you could use it for agriculture or 
rangelands without trying to get it clean enough to drink.
    And the other resource that is fairly interesting from the 
perspective of produced water is being able to extract 
chemicals from it. I'll give you an example. Lithium, the 
demand for lithium has been growing tremendously. It will 
continue to grow as we move more toward an electrical-based 
economy simply because of battery storage requirements. We 
import all of our lithium today. If we were to be able to 
extract 50 percent of the lithium that comes out in produced 
water, we would become a net exporter of lithium without 
introducing any other mining operations as far as lithium is 
concerned. And that's just one example of what can be pulled 
out.
    Unfortunately, the problem is very complex. I mean, I'm an 
engineer. I like to think like an engineer. I like to believe 
that all problems of the last 100 years have been caused by 
engineers and all solutions came by engineers, too, right, so--
but a problem this requires, you know, a nexus between 
engineers, legislators, regulators, industry, academia, and so 
forth, and that's where I think this Committee can play a 
tremendous role in terms of setting the tone in the direction 
we need to go forward. So it's been an honor and a privilege 
for me to be here, and I would be welcome in taking any 
questions. Thank you.
    [The prepared statement of Dr. Singh follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you, Dr. Singh. I'm glad you said that 
because the next time I go home and someone tells me that the 
politicians in Washington are screwing everything up in this 
country, I'm going to say, no, I have it on very good authority 
it's the engineers.
    So, Dr. Webber, go ahead.

                TESTIMONY OF DR. MICHAEL WEBBER,

         CHIEF SCIENCE AND TECHNOLOGY OFFICER AT ENGIE,

                   AND PROFESSOR AT UT AUSTIN

    Dr. Webber. Thank you very much. Chairman Lamb and Ranking 
Member Weber, I appreciate the opportunity to submit testimony 
today. As you've heard, the energy-water nexus presents unique 
challenges and invites crosscutting solutions. Because the 
energy system depends so extensively on water and the water 
system depends so extensively on energy, they are both 
vulnerable to cascading failures from one sector to another. 
For example, a water constraint can become an energy 
constraint, and an energy constraint can become a water 
constraint. If water is not available at the right place and 
time with the right quantity and quality, then the power sector 
might struggle to generate and deliver electricity. And if 
energy is not available because of blackouts, then the water 
sector struggles to treat and deliver water. That means the 
energy-water nexus is a resilience challenge for planners. 
Thankfully, it also invites crosscutting solutions, especially 
for conservation and efficiency, namely in saving water saves 
energy and saving energy saves water, which avoids 
environmental impact and improves resilience.
    For my remarks I will focus on two aspects: The energy use 
for the water system and specific challenges related to 
managing wastewater from oil and gas production, building on 
Dr. Singh's comments.
    The combined water and wastewater system is a hallmark of a 
modern society, and because the economic and public health 
benefits are so extensive, they are the most important public 
investments a society can make. These water and wastewater 
systems also require vast sums of energy for pumps, blowers, 
chemicals, and mechanical equipment. We use more energy in our 
buildings to heat water, and industry uses even more energy to 
treat that water further, for example, to make ultra-pure water 
for semiconductor fabrication or to make steam for use in 
refineries. All told, about 13 percent of national energy 
consumption is for direct water and steam services. About 1/3 
of that or about 4 percent of national energy consumption is 
just to heat water in our homes and businesses. That is about 
twice the amount of energy that Sweden uses to run their entire 
country. So we use a lot of energy just in heating the water.
    As a result, water heating represents an opportunity for 
saving energy and avoiding emissions. In most parts of the 
United States, shifting from electric heating toward natural 
gas heating or solar water heating reduces energy use and 
CO<INF>2</INF> emissions. And if we clean the grid up similar 
to what we have in the Pacific Northwest that's mostly hydro, 
then electric water heating would be an excellent option as 
well.
    Incentives and information guides to encourage adoption of 
more efficient appliances that use heated water like 
dishwashers and clothes washers will continue to provide 
nontrivial savings. According to one study, the average U.S. 
household could save hundreds of dollars on their electricity 
and water bills by making those appliance upgrades with the 
types of upgrades that pay for themselves, meaning they save 
money in addition to reducing consumption. In addition, wisely 
managing the end uses of water and energy would improve the 
resilience and efficiency of military installations, which 
makes this a national security issue also.
    The water sector's energy needs can also be used to 
integrate higher fractions of renewables into the power sector. 
Water treatment, wastewater treatment, and modern desalination 
plants that use reverse osmosis are particularly electricity-
dependent. They can be ramped up and down and operate flexibly, 
which makes them a good companion for variable resources like 
wind and solar. Furthermore, it is much easier and cheaper to 
store water than to store electricity. For example, you can use 
simple water tanks to store water instead of expensive 
batteries. And that means integrating renewables with the water 
sector can help make the electricity sector more resilient 
while providing valuable grid services and speeding the 
adoption of clean forms of power.
    Another issue, as you heard, is the amount of wastewater 
produced alongside oil and gas extraction. Unfortunately, water 
and wastewater are often moved by trucks, which are less 
efficient, dirtier, and more destructive to communities and 
more destructive to roads than pipelines. Building a pipeline-
based wastewater collection system would improve the safety and 
impose much less environmental risk compared with truck-based 
movement. Such a system would also reduce the cost for oil and 
gas production, helping propagate the ongoing boom in places 
like west Texas. A water pipeline network would also enable 
specialized capabilities with economies of scale for treating 
this very dirty water, which would open up the case for water 
recycling and reuse while avoiding disposal by underground 
injection.
    The Federal Government can help. Uncertainty about gaining 
right-of-ways on Federal lands make it harder for developers to 
build these wastewater collection networks, which inhibits the 
construction of treatment and recycling systems, leaving 
underground disposal as a primary wastewater management option 
and putting pressure on aquifers. Facilitating pipeline 
construction would help accelerate the adoption of better 
management pathways.
    In addition, policy stability and certainty is important 
for developers making decisions to invest in long-lived assets. 
Policy shifts from year to year and government shutdowns 
increase those costs and delay the projects that have 
environmental benefit.
    A couple closing comments is that in addition to 
facilitating the development of water collection networks, the 
Federal Government has other actions it can take. Encouraging 
the Department of Energy to have water in mind for its programs 
is a good place to start. And encouraging water planners to 
keep energy in mind is also important. In addition, data 
collection and sharing programs can make a big difference. Data 
on urban water use is particularly scarce in comparison with 
our energy data, which makes it harder to manage usage or 
improve resilience. The EIA (Energy Information Administration) 
dataset set the gold standard for energy data, and we need 
something similar for water, perhaps by creating the agency 
with that task or by expanding the EIA's mandate to include 
tracking of water demand and supply.
    And last, one of the most important policy levers for the 
Federal Government is to sponsor R&D. Incremental improvements 
will not solve these challenges quickly enough, so there's a 
need to scale up the effort. The U.S. innovation system is the 
best in the world, so it makes sense to leverage those 
strengths to our advantage.
    Thank you for the opportunity to share my thoughts. I'd be 
happy to answer any questions.
    [The prepared statement of Dr. Webber follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you. We will now begin our round of 
questions, and the Chair recognizes himself for 5 minutes.
    Dr. Tidwell, I wanted to ask you, many people have 
identified how water issues vary across the country, especially 
as climate change gets worse and worse and becomes more 
apparent. I can give you a local example. You know, I know 
you've talked about out west there's often droughts and water 
shortage. In western Pennsylvania where I live, the problem is 
often too much water. We're having very intense and more 
frequent rainstorms. We are a very hilly area. And 
interestingly, someone told me there's roughly 5,000 water 
systems in the United States, the continental United States for 
treatment and drinking water. About 1,000 of them exist in the 
10 counties of southwestern Pennsylvania. It's an interesting 
historical legacy. It makes it very hard to coordinate our 
efforts when it comes to water treatment.
    So I was curious if you could just give us a very brief 
insight on how we can help to encourage the regional 
cooperation as necessary in these different areas?
    Dr. Tidwell. Thank you, Chairman, for that question. 
Certainly, I think one of the low-hanging fruits that we have 
for this energy-water nexus is this very problem of integrated 
planning and bringing different groups together. Certainly, the 
opportunities that we face with these small systems, there are 
rural water industrial groups that help these systems and to 
provide them with the tools that they can then use and work 
with their local constituents I think would be one important 
place.
    Another important place as we go forward is going to be in 
the development of workforce skills as many of these smaller 
areas don't--are not able to employ folks with the necessary 
skills. And so going forward, we're going to need to develop a 
trained workforce as some of these more complex technologies 
come in place to treat water, to manage our water systems and 
our wastewater systems. So I think----
    Chairman Lamb. That's a fantastic point. Thank you very 
much.
    Dr. Webber, I wanted to ask you about the pipelines for 
hydraulic fracturing and wastewater, big issue in western 
Pennsylvania where we're doing a lot of hydraulic fracturing. 
I'm not familiar with pipelines being constructed near where we 
live for the actual wastewater. Most of it is being trucked 
out, and it does cause a lot of impact on the local 
communities. Are there areas where they have successfully built 
a pipeline network for this?
    Dr. Webber. This is a good point. Water and wastewater is 
primarily moved by trucks, and the trucks are a source of 
discontent with a lot of the communities because they change 
the rural lifestyle. They add a lot of noise, a lot of dust. 
They lead to traffic accidents and deaths and road impact. 
Pipelines generally are much more expensive to build but much 
safer and cheaper to operate once you have them built, and 
there are some nascent water and wastewater collection systems 
out in New Mexico and west Texas primarily, maybe a little bit 
in the Bakken shale in North Dakota as well.
    So there are some examples where you have concentrated 
production of oil and gas and you have a policymaking process 
where it's easier to build and the land is also flatter and 
easier to build on, say, than the Appalachian Mountains and 
other places. It's easier to build, and then that reduces the 
cost for sourcing the water, collecting the water, treating the 
wastewater, that kind of thing. So there are some examples.
    When I talk to oil and gas operators, I think they'd like 
to see more water and wastewater systems built because it would 
reduce cost and do less damage.
    Chairman Lamb. Do we have any policy levers at our disposal 
on the Federal level to try to encourage that, and in an area 
like mine that is topographically a little bit different than 
the southwest?
    Dr. Webber. I think the--a lot of these decisions are made 
at the local level or the State level, so often it's State-
level policymakers, but there are some Federal levers at play 
whenever you're on Federal lands, for example. As you get 
further west, you get to BLM (Bureau of Land Management) lands, 
for example, and then the Federal levers become much more 
important. Most of it's at State-level decisionmaking, but 
there's a role for the Federal Government to play in convening 
the State-level policymakers in sharing data and information 
that they can't collect themselves. So I think there is a role 
for the Federal Government, but it requires cooperation at the 
local and State level as well.
    Chairman Lamb. Thank you very much. And last question very 
quickly, Dr. Singh, you mention alternatives to water for 
hydraulic fracturing. Just in sort of 10 seconds or less, are 
we close on any other fluids besides water or I guess non-fluid 
solutions?
    Mr. Weber. Turn your mic on, please.
    Dr. Singh. I think water will continue to be the major 
driving fluid, but the amount of water that's used can be cut 
down a lot. And plus some of the produced water can be recycled 
and used back at the source itself or--for that. Does that 
answer your question?
    Chairman Lamb. It does. Thank you very much.
    I now recognize Mr. Weber for 5 minutes.
    Mr. Weber. Thank you, Mr. Chairman.
    I'm going to give you something to read here about purple 
pipe. Very quickly, Dr. Tidwell, have you ever heard of purple 
pipe?
    Dr. Tidwell. Yes, sir, I have.
    Mr. Weber. Ms. Zerrenner, is that right?
    Ms. Zerrenner. Right.
    Mr. Weber. Right that it's right or right that you've heard 
about pipe?
    Ms. Zerrenner. Both.
    Mr. Weber. OK, good. Dr. Bonner?
    Dr. Bonner. I haven't heard about it.
    Mr. Weber. Dr. Singh?
    Dr. Singh. No, I haven't.
    Mr. Weber. Dr. Webber?
    Dr. Webber. Yes, and I've written extensively about it and 
done research on purple pipe.
    Mr. Weber. Really? OK. You know that it's a system that 
takes from the home or business--it's not necessarily 
wastewater from the toilet, for example, but it may be from the 
sink or dishes or whatever, and it treats it to the extent that 
it doesn't have to be drinkable but it could be used for 
irrigation and other things like that. And I thought perhaps 
that might be part of you all's focus today. But we'll go there 
later.
    Now, I am from Texas, as Dr. Webber knows, and I often say 
that any State worth its salt has a desalination plant. And 
some of you all will get that on the way home. And we have one 
in Texas. Back in my days in the Texas State Legislature, I had 
the opportunity to tour a large-scale desalination plant in 
Brownsville. Have any of you been to that plant? She has but 
you all haven't. Ladies are always leading the way. Have you 
all noticed that, gentlemen? It's OK to say yes. OK. I want to 
get you all softened up here.
    I've seen firsthand the amount of electricity required to 
convert brackish water to potable water. Dr. Singh and Dr. 
Tidwell, as you know, DOE recently announced $100 million in 
funding for an energy-water desalination hub that we talked 
about focused on early stage research and development to 
explore those uses for nontraditional water sources and to 
develop new desalination technologies. So a couple of questions 
for you, and I'll start with you, Dr. Tidwell. Will the 
research funded by this hub focus on reducing the energy 
necessary to be used in those current desalination plants? Your 
thoughts?
    Dr. Tidwell. Yes, sir, that's a good question. And, yes, I 
think there are opportunities to help with existing plants. One 
would be--one example would be with improved membrane 
technology that would help reduce fowling, so that would be one 
example where we----
    Mr. Weber. So the product--the output--the product would be 
cleaner, easier. But do you know what the number one energy 
driver is in a desal plant--or need is in a desal plant?
    Dr. Tidwell. It's the pressurization of the----
    Mr. Weber. It's the pumps.
    Dr. Tidwell. Pump----
    Mr. Weber. The pumps there in Brownsville--and I'm going 
back now 10 years. It must have been this big around----
    Dr. Tidwell. Yes, sir.
    Mr. Weber [continuing]. And the electricity required to 
drive those is really tremendous.
    Dr. Tidwell. Which is forcing the water through those 
membranes
    Mr. Weber. Correct.
    Dr. Tidwell [continuing]. So anything that can help improve 
that permeability----
    Mr. Weber. Right.
    Dr. Tidwell [continuing]. Is--would help reduce----
    Mr. Weber. Efficiency, get more water out a little cheaper.
    Dr. Tidwell. Yes, sir.
    Mr. Weber. Because they're bringing water. And I think it 
was a 12-inch pipe. Now I'm going from memory, you know, from 
the Gulf of Mexico into Brownsville, and the distance you have 
to bring requires of lot of electricity and a lot of pumps. Do 
you agree with that, Dr. Singh, that that focus will be on 
increasing the efficiency?
    Dr. Singh. Yes, I agree because conventional desalination 
requires--it's very energy-intensive.
    Mr. Weber. Yes.
    Dr. Singh. And the only reason you would do that is if you 
had no other source of potable water. There are technologies 
based on electrocoagulation, which can clean up what's going in 
before the membranes kick in. There are technologies using 
ceramic membranes, which can increase the efficiency, but that 
efficiency will need to go up.
    Mr. Weber. Right. And of course that's going to depend, 
let's face it, on the cost of electricity, right? And so I 
think we could all agree that the lower the price of natural 
gas is, the cheaper that energy companies can produce energy. 
That, in and of itself, will have a reduction in the cost of 
desalination. Would you all agree with that? Absolutely, you 
bet you. So fracking is a good thing. I'm glad we all agree on 
that.
    In your opinion, Dr. Tidwell, what impact could this hub 
have on your research? What would your role be?
    Dr. Tidwell. Most of my work is around modeling and 
analysis, and so importantly, understanding how climate change 
affects the resilience of our energy-water systems and 
integrating uncertainty in those changing climates, changing 
demands for water, changing technology, and how we can plan for 
a robust, resilient system going forward into the future.
    Mr. Weber. How about you, Dr. Singh? Your research--how 
would you correlate this--correspond--how would this impact 
you?
    Dr. Singh. Two areas of research, one would be increasing 
efficiency of basically breaking up rock to increase extraction 
efficiencies not only for fracking but also for geothermal 
systems. And the second aspect would be--which we haven't 
talked about today, would be releasing the mitigation due to 
induced seismicity or reinjection, so these are the two areas 
that would be affected the most.
    Mr. Weber. OK. Thank you. Mr. Chairman, I yield back.
    Chairman Lamb. Thank you. I now recognize Ms. Horn for 5 
minutes.
    Ms. Horn. Good morning. Thank you all for your testimony. 
And Dr. Singh, as a fellow Okie, it's good to see you here 
today.
    So I have a couple of lines of questioning, and I want to 
start with you because I think you brought up a couple of 
important points. As I'm sure it comes as no surprise to 
anyone, both water and energy are big issues in my home State, 
as well as that of the Ranking Member of the Full Committee. So 
I wanted to follow up on some of the points that you made about 
the need for interdisciplinary work because part of the 
challenge with fracking is--and the challenges that we've seen 
in Oklahoma with earthquakes and things like that comes from 
the wastewater reinjection more so than just the breaking up of 
the rock itself. So I wanted to see if in your research you had 
looked at the impact that that might have of taking the water 
in addition to taking it out and reusing it, the impact in 
other areas for energy production.
    Dr. Singh. I don't understand the other-areas part, but I 
can talk a little bit about the reinjection. Reinjection right 
now is not very well understood. I mean, the way--we have a 
traffic light system in which if they feel that there is 
something that's going to happen, reinjection stops. And this 
reinjection problem is not necessarily a problem that's limited 
to fracking. Induced seismicity also happens in geothermal 
fields--in some geothermal fields in Europe in technology--
energy production technology that is quote/unquote ``much 
greener'' than fracking.
    So there is--there were initially some concerns in terms of 
how clean does the produced water need to be for it to be 
reused for fracking, but that concern is not because of 
reinjection. That concern is mainly from being able to control 
the chemistry to allow the fracking process to be more 
efficient.
    Ms. Horn. And if the technology continues to develop to 
take the wastewater from the fracking process to be more 
usable, potable even if it's not drinkable, what impact does 
that have on the amount of reinjection that would have to 
occur?
    Dr. Singh. So to give you some numbers, a fracking 
operation and the well in its lifetime will take about, you 
know, 2 to 8 million gallons of water. We produce about 60 
times produced water every day than that's used in the city of 
Washington, D.C. So some of that will go back as--for 
reinjection, but that's not the only solution. The other 
solution also has to be to look upon produced water as a 
resource to use it for other purposes. And in Oklahoma that, 
for example, could be agriculture or rangelands and not 
necessarily cleaning it up all the way for human consumption.
    Ms. Horn. Thank you. The second area--and I'm going to open 
this up because I think it may be best for Dr. Tidwell but if 
anyone else has thoughts on this, in Oklahoma, in addition to 
the municipal, State, and other Federal issues, we have 39 
tribes, federally recognized tribes in the State of Oklahoma, 
so this energy-water nexus also impacts issues surrounding 
tribal sovereignty and water usage and water rights. So I'm 
wondering if you could talk more about policy recommendations 
or areas that you see emerging with this Federal, State, local, 
tribal lands issue.
    Dr. Tidwell. Thank you, Congresswoman. I--this is a very 
important issue. I think at the end of the day, what it really 
boils down to is improved communication across all of these 
different entities. One of the important aspects of 
particularly the Indian water rights is that in many cases in 
the west they hold rights or their rights haven't been fully 
adjudicated, so they play a very important role in how future 
water might play out in many cases in the western United 
States. And so they are an important player that we need to 
bring to the table, as well as the States. The States 
ultimately have jurisdiction over their water.
    I might mention that DOE also has numerous programs for 
helping to support energy development on Native American land. 
So all of these particular activities need to be coordinated 
and, you know, integrated planning is a very important part of 
all that.
    Ms. Horn. Thank you. Mr. Chairman, I yield back.
    Chairman Lamb. Thank you. And I recognize Ranking Member 
Lucas for 5 minutes.
    Mr. Lucas. Thank you, Mr. Chairman.
    As I mentioned in my opening statement, there's an 
abundance of natural gas resources in my district and in many 
parts of the great State of Oklahoma, as we discussed. But also 
as a farmer, I understand and appreciate the importance of the 
reliability of water, and I'm particularly interested in the 
research partnerships and results in these areas.
    So I turn to you, Dr. Singh. In your testimony, you 
expressed the same sentiment by saying, ``Meaningful 
interactions are needed across a variety of stakeholders, 
including universities, local governments, and industry.'' Can 
you give us some examples of that collaboration that you and/or 
Oklahoma State and industry stakeholders have been a part of 
that's generated beneficial results?
    Dr. Singh. I'll give you one small example, and this came 
about from our discussion with ONEOK. ONEOK transports a lot of 
natural gas that's produced. In the winter to transport this 
natural gas across pipelines, they have to add methanol to--as 
an antifreeze basically. Now, at the same plant they're flaring 
methane and burning it into--you know, burning it away. So one 
technology that came about--and this is research now that's 
being done and this actually involves partnership with a very 
eminent chemist at Caltech is to take the onsite methane, 
convert it into methanol, use that methanol instead of pumping 
methanol to the stations and then discarding it at the other 
end.
    The only reason this came about was because I was in 
discussion with the ONEOK researcher and talking about issues, 
and this is a very specific example, I understand, but I think 
in terms of my perspective at the Helmerich Research Center, a 
lot of this discussion has been driven by industrial advisory 
boards in identifying the problems that academia can solve.
    Mr. Lucas. So let's touch on that for just a moment, the 
industrial advisory boards. Your experiences with the 
interaction and--are there ways that perhaps we could help 
encourage that collaboration?
    Dr. Singh. Yes. I think for us especially as academia when 
we seek out, let's say, Federal or State-level funding, when 
that funding specifically mandates convergence type of research 
or the--you know, talking to various stakeholders in terms of 
the probability of getting funded, then that pushes, you know, 
multiple people to the table, and that has been helpful in our 
case.
    Mr. Lucas. I can't help but, Dr. Singh, touch for a moment 
on the topic of fracking and injection wells, which is a very 
sensitive subject in our great State of Oklahoma. In my home 
area typically the oil and gas products come out in the 
particular area I'm at, and it varies of course in the 10-, 12-
, 13,000-foot range. And historically, fracking has gone on in 
my home area at least since the early 1970s, not as aggressive 
as the hydraulic fracking, the improved technology, but 
fracking's gone on. We've never had earthquakes or that sort of 
stuff. The injection well process that's come along in recent 
years where again typically in my area the material comes out 
at 12-, 13,000 feet, but it goes back into an injection well at 
5,000 feet or so. We seem to have a different kind of a 
lubricating zone there so to speak under the earth.
    Wouldn't you agree that the Oklahoma Corporation 
Commission, the entity with primary jurisdiction in our State, 
has been very aggressive in how they've responded to these 
issues about the seismic issues that have come from it, how 
they put limitations on certain areas and this, that, and the 
other?
    Dr. Singh. Yes, and I think a lot of that comes from a lack 
of scientific understanding as to exactly what goes on. I think 
it's a problem that can be managed. A similar analog would be 
to say all fossil fuels are bad and stop consuming them 
tomorrow, which means we would come to a standstill as a 
country, so----
    Mr. Lucas. Exactly. Therefore, it's fair to say that the 
Oklahoma Corporation Commission is trying to respond in a way 
until technology can catch up, until we can do the things we 
need to do to be able to address this process. Thank you, 
Doctor, for being here today.
    And with that, Mr. Chairman, I yield back.
    Chairman Lamb. Thank you, Mr. Lucas. Who's next?
    I recognize Mr. Casten for 5 minutes.
    Mr. Casten. Thank you, Mr. Lamb. Thank you to the panel. 
The--Dr. Webber, you had mentioned in your written testimony 
about creating sort of an Energy Information Administration for 
water. I'm an energy geek. I love EIA. I think it's a great 
idea. I should mention by way of background in my prior life, I 
ran a number of clean energy companies where we went into 
industrials, tightened up their energy envelope and, among 
other things, ended up running all of the energy and water 
assets at Kodak Park in Rochester, a 50-million-gallon-a-day 
water intake permit and it was kind of a cool job for the 12-
year-old boy inside me.
    I mention that because energy metering is pretty robust 
because at every point in the energy system people pay for 
things. There are revenue meters. Buyers and sellers want 
accuracy. Water metering is terrible. The internal metering is 
shoddy. They're not calibrated very often. It doesn't--often 
doesn't exist. And it's basically a problem that the water's 
too cheap that it's not worth the time to meter. If we were to 
create a Water Information Administration, I'd like your sense, 
number one, of realistically how many meters do we need to put 
in? Because to my mind, it's a metering problem first. And, 
number two, as you look at water data, where are you skeptical 
given the meter gaps? Because in my experience you got to put 
plus or minus 20, 30 percent error bars on a lot of the water 
data you see.
    Dr. Webber. That's a great question, great context. I think 
the water metering world lags behind the energy metering world, 
and the water data world lags behind the energy data world. 
Energy typically is more expensive. It's also more central to 
other economic and national security aspects. But, frankly, if 
we go back 50 years, the energy data was pretty bad, too. It 
wasn't until the 1970s and the energy crises that we created 
the EIA to start tracking it more closely because there was a 
sense of urgency and importance to it. And then once we started 
tracking data with more fidelity in place in times, we tracked 
it daily, weekly, with prices, total consumption by fuel and by 
location, by industry and sector, then we could spot 
opportunities for efficiency and savings. When we get to that 
level of data I think for water we can spot other 
opportunities, but when water's too cheap or we don't feel a 
sense of urgency, it's hard to do that.
    I think in the specifics of the question of metering, we 
have about 100 million households. We probably need a smart 
water meter for every household, so maybe 100 million smart 
water meters. Plus we need them throughout the distribution 
networks because 10 to 40 percent of treated municipal water is 
lost from when it leaves the plant to arrives at the home, 
which means we also need meters throughout these distribution 
networks to track those losses so we can get repairs done 
quickly and avoid all that lost water and all the energy 
embedded in it.
    So there's a lot of opportunity for data, data platforms, 
smarter meters, better meters. Right now, the meters are not 
very smart or they're read by hand or they have these errors or 
they're not metered at all in some cities in the United States, 
so this is a big opportunity, and the EIA lays the blueprint 
for how to do it if you had a WIA (Water Information 
Administration), for example.
    Mr. Casten. Related--and anyone on the panel who's got a 
thought on this--you've layered on top of that that we have 
fairly good--subject to everything we just said, fairly good 
data for surface water, and some reasonable concern about 
falling snow melt I think on a per-decade basis, where since 
1967, we're losing about 11 percent of our snowpack every 
year--up every decade rather. The data on groundwater is a lot 
worse and, you know, there's been places in northern California 
I'm aware of where the water coming out of aquifers is now 
exceeding the salinity levels that they can land apply, which, 
I mean, this is Beyond Thunderdome kind of territory. How 
confident are you that we have good data on the water--the sort 
of the prehistoric water if you will? And what should we be 
doing as a government to make sure we have a good handle on 
that?
    Dr. Webber. Yes, the fossil water some people call it. So 
we have much better view of the surface water. We can see, we 
can measure it. The below-groundwater we don't see as well. We 
don't have great metering systems in most places, so we wait 
until the well goes dry or the well goes salty, and we know 
there's a problem. And NASA is a big partner for this because 
they can measure water content of aquifers from space more 
readily than we can from the ground ironically, so there's 
partnerships with the national labs and NASA and the agencies.
    I think ramping up on just a water tracking system would be 
useful because then everyone can make decisions and planners 
can make better informed decisions about where to put their 
capital based on where the water problems are.
    Mr. Casten. OK. And last question with the little bit of 
time we've got left for Ms. Zerrenner if I'm saying your name 
right there. You had mentioned how much water the--you know, 
the nuclear and fossil fuel industry uses, and I used to tell 
people all the time if you want to understand the problems with 
our energy system, draw a power plant. And everybody draws a 
cooling tower. However, that's really specific to the open-loop 
systems. Do you have any estimate of how much of our fossil 
nuclear sector is closed-loop and what we might be able to do 
to encourage more closed-loop water systems on the fossil side?
    Ms. Zerrenner. Yes, I--Michael may know the exact numbers. 
I don't know the exact numbers, but we're seeing more and more 
movement in that direction. So it's a--we see an average of the 
amount used by coal and nuclear and natural gas because of the 
differences and the different types of cooling. You have also--
besides closed-loop and open-loop you also have dry cooling and 
wet cooling. And the dry cooling uses--so they use a lot more 
water--they use a lot less water, but they also are less 
efficient, so you have some tradeoffs there. So you're creating 
some issues around that. But really we want to see more energy 
efficiency, which uses no water. If we make our systems more 
efficient, they are also more resilient.
    We saw other issues like during Hurricane Harvey where the 
wind turbines continued to turn in the Gulf of Mexico but the 
grid was down, so they didn't have anything to connect to. So 
thinking in terms of microgrid systems and making those more 
efficient as well, there's--there are lots of moving pieces to 
this. I--but I don't have the exact number----
    Mr. Casten. OK.
    Ms. Zerrenner [continuing]. Of the system.
    Mr. Casten. Well, and I'm out of time, but just make a plug 
for cogeneration while we're out here because so much of that--
that's what we did in Rochester, and the fact that George 
Eastman built a power plant in 1880 that's twice as efficient 
as the U.S. power grid today is a lesson I think we can all 
learn from.
    Thank you. I yield back.
    Chairman Lamb. I recognize Mr. Biggs for 5 minutes.
    Mr. Biggs. Thanks, Mr. Chairman. I thank all the members of 
the panel for being here today.
    Dr. Bonner, I was interested in your paragraph in your 
written statement and then your testimony with regard to Palo 
Verde nuclear generating station in Tonopah, and you were just 
there recently?
    Dr. Bonner. Yes, it was in the last month, yes.
    Mr. Biggs. Yes, so you were there during the good weather 
time, so----
    Dr. Bonner. It was nice.
    Mr. Biggs [continuing]. Good for you. I hope you get out 
there in the summer and experience what real heat's about.
    So you mentioned in your statement that there's competing 
demand for the water, and we're talking effluent I assume?
    Dr. Bonner. Yes.
    Mr. Biggs. OK. And so I think I know what they are but 
maybe you want to elaborate on what some of those competing 
demands because Tonopah's--most people don't know this--where 
the Palo Verde generating station is is in a remote part of 
Maricopa County. Maricopa County has got--Arizona has got 7 
million people in it, and Maricopa County has 5 million people 
in Maricopa County. It's an odd State. We only have 15 
counties. And where you went is really remote. There's no water 
supply, as you mentioned. But what are the competing demands 
for effluent in basically an urban area that has 5 million 
people in it?
    Dr. Bonner. Right. I think part of the water is to go back 
to the town for its own purposes, but I think the copper 
industry also uses a lot of water as well in that area. And 
other industries, it's a very--it's a growing area. There's a 
lot of like retirement homes and stuff being put up there, too, 
people moving there, and that demand is just causing more needs 
on the water. And I think the--a lot of the contracts that were 
negotiated for that water when the plant was built were 30 
years ago. And I think the municipalities are under the 
impression that they gave it away too cheaply, especially now 
with how the local area is growing, and they're trying to get 
more out of it.
    Mr. Biggs. Yes. You didn't mention golf courses, but 
there's a lot of golf courses in the valley, so----
    Dr. Bonner. Yes, it's part of the retirement part----
    Mr. Biggs. Yes. So as we take a look at that and the 
demands, you indicated that you are working on ways to mitigate 
the--either the cooling cost or what exactly--I'm not sure what 
you were working on, but I assume that you're trying to find a 
way to lower costs either by reduction in the use of the 
effluent or some other cooling mechanism, so----
    Dr. Bonner. Right.
    Mr. Biggs [continuing]. Can you elaborate on that for us?
    Dr. Bonner. Sure. So Palo Verde, which is, what, cooling 
towers, right, so all the water or at least 95 percent of it 
goes to evaporation and the rest of it goes to evaporation 
ponds. So our concept would--in order to get rid of water be 
some sort of dry cooling technologies. And we were at an air 
condenser--air-cooled condenser users group a few months ago. 
That's where we sort of made the first connection. They saw 
some of our concepts that we developed on the ARPA-E ARID 
program where we can use salts to essentially store heat at 
night, and then during peak demand when it's hot at three 
o'clock in the afternoon, you can dissipate the heat to that 
basically nighttime temperature but dissipate it during the 
day. And by doing that, you can use no water but you can also 
get temperatures that are similar to what you get in a wet 
cooling tower, so you don't have the efficiency issues that Ms. 
Zerrenner was talking about. If you try especially in somewhere 
like Arizona to dissipate directly to air, usually you're 
talking about at least a 15-percent decrease in power 
efficiency. And I suspect in Arizona even to reach that you're 
talking about a very, very large air-cooled condenser system 
using traditional technologies that would be not even close to 
cost-competitive to what they currently do.
    Mr. Biggs. So I guess that leads me to--the logical next 
question is, what would it cost to retrofit to something that's 
air-cooled? I'm not asking for a bid. I'm just--you know, a 
ballpark.
    Dr. Bonner. Right. I think it's--when I was there talking 
with them and we were in the room with some other air-cooled 
condenser companies, I think you're talking about at least 10 
times more expensive than a wet cooling tower in terms of 
capital cost, so it's substantial.
    Mr. Biggs. But does it offset over time with the usage 
costs with the rising cost of effluent?
    Dr. Bonner. It probably would, yes. It would offset over 
time. But I think the----
    Mr. Biggs. That's the salesman in you saying that, right?
    Dr. Bonner. Yes, a little bit. Yes. Well, the paybacks are 
longer than what you would--than what the stakeholders want to 
see.
    Mr. Biggs. Right. OK. Thank you very much. I'll yield back.
    Chairman Lamb. Thank you. I recognize Mr. McNerney for 5 
minutes.
    Mr. McNerney. Well, I thank the Chair. I thank the 
witnesses. It's very interesting. I've got a lot of questions, 
and they're not really mean questions either, so I look forward 
to your answers.
    Dr. Bonner, as water becomes scarcer in the west and 
southwest, I really liked hearing about the alternative cooling 
techniques for the Palo Verde Nuclear Generation statement. How 
would that work? I mean, how would the technology you're 
talking about reduce water consumption at a nuclear plant?
    Dr. Bonner. Right. So, again, our--overall for dry cooling 
you're dissipating heat to air, so it doesn't use any water at 
all, right? It--you're not going to be taking any fresh water 
and evaporating it, so it's similar to how most things--most 
air conditioners would be cooled or most electronics would be 
cooled. The heat eventually sinks to air.
    Mr. McNerney. So it's--you're--basically what the prior 
question was is----
    Dr. Bonner. It's a very similar----
    Mr. McNerney. OK.
    Dr. Bonner [continuing]. Answer to that, yes.
    Mr. McNerney. Thank you. Dr. Webber, your testimony 
recommended a scale-up effort of the R&D in the field of water-
energy nexus. I've proposed a piece of legislation last 
Congress that put a lot of effort into that issue. Could you 
elaborate on what you envision for a scaled-up effort?
    Dr. Webber. Yes, thank you for your support of R&D, and I 
think there's an opportunity for more. If you look at the scale 
of the problem for the energy sector, which is a multitrillion-
dollar sector around the world, the few billions of dollars a 
year we spend on Federal R&D seems very small by comparison. 
And if you look at water, it's even more stark because we spend 
less than $1 billion a year on water research. And that 
includes a lot of the environmental water quality issues. So I 
think there's an opportunity for many more investments to be 
made in better water treatment systems, the membranes that Dr. 
Tidwell mentioned earlier, better pumps that were called out 
earlier for the desalination systems, the variable speed drive 
pumps. There could be all sorts of work under the chemistry. 
There's a variety of things that we can do to look at the water 
side and reducing the energy intensity of water but also, as 
Dr. Bonner mentioned, looking at the water intensity of energy 
in kind of a new materials or heat exchanger designs or cooling 
systems for the power sector, as well as looking at new 
techniques to reduce the water intensity of oil and gas 
production.
    There's a lot of opportunity for R&D. It's something that 
industry has stepped away from over the last few decades. The 
industry looks really more at applied R&D rather than basic R&D 
or fundamental science, so there's room for the Federal 
Government to fill that gap, and industry has been calling for 
it, along with academics and national labs. So I think just the 
level of funding and the sense of urgency around it has room 
for stepping up.
    Mr. McNerney. Great. I was kind of intrigued by your 
statement that water is cheaper to store than energy. So do you 
see a practical way of using that to store--to store energy or 
to use energy-water more efficiently?
    Dr. Webber. Yes, so there are a couple of examples. I'll 
take the water heating example. There's a lot of electricity 
that goes into water heating. A lot of our water heaters are on 
around-the-clock whether we need them or not, and so we could 
turn off water heaters if we need to save power. And turning 
off the water heaters is the same as discharging power from a 
battery. It has the same effect on the grid. In France they 
have a peak demand that's 1/10 of what the United States has. 
They have a peak demand of 100 gigawatts of electrical power. 
In the United States we have 1,000 gigawatts. In France they 
can turn off 3 gigawatts worth of electric water heaters to 
save 3 gigawatts or 3 nuclear power plants' worth of power for 
the grid. That's about the same as having a lot of batteries 
doing the same thing, but it's a lot cheaper to turn off a 
water heater than, say, turn on a battery.
    We could do the same thing in the United States where we 
use water systems in a flexible way, turn them on and off, ramp 
them up and down to achieve the same benefits for the grid that 
a battery might do, but it's a lot cheaper to turn something on 
and off than build, buy, install, and operate a battery.
    Mr. McNerney. Well, I was thinking more in terms of desal 
or, you know, you can use electricity to desal and store that--
--
    Dr. Webber. Yes.
    Mr. McNerney [continuing]. And use it rather than--so 
that's a really good match for renewables, which are 
intermittent.
    Dr. Webber. Absolutely. So you can ramp desalination up and 
down, you can ramp water treatment or wastewater treatment up 
and down and ramp them up and down to match when the renewables 
are available. In that case, the water system can help speed up 
the adoption of those renewables.
    Mr. McNerney. Mr. Chairman, I don't know how much time I 
have, so I'm going to continue to talk until you stop me, but I 
don't think I'm running out of time yet.
    Chairman Lamb. Go for it.
    Mr. McNerney. All right, thanks.
    Dr. Singh, you mentioned the hydraulic fracturing is 
essentially the cleanest, but the problem in my mind is that 
just a small amount of natural gas fugitive emissions cause 
natural gas to be dirty compared to other forms of fossil fuel. 
Can you address that?
    Dr. Singh. Yes, that's correct. So natural gas, of all 
fossil fuels, is probably the cleanest when you burn it.
    Mr. McNerney. When you burn it.
    Dr. Singh. Any form of carbon that's burned or any form of 
carbon essentially leads to carbon dioxide and so does natural 
gas. I mean, so do we when we breathe in and out. The problem 
is methane, so methane is about 20 times as potent as a 
greenhouse gas as carbon dioxide is, and that's why a lot of 
methane flaring takes place because instead of venting it into 
the air. So there are a lot of technologies in which--in terms 
of which--and can be captured rather than wasted into the 
environment, so that's--that can be minimized by capture rather 
than simply venting or, you know, leakage.
    Mr. McNerney. Right. But I've heard that if only 2 percent 
of natural gas that's captured is leaked through----
    Dr. Singh. Right.
    Mr. McNerney [continuing]. Pipeage or fracking leakage or 
whatever, that it's--it's undone all the good that's created by 
the efficiency of burning gas. Is that an accurate number?
    Dr. Singh. I would have to look at the numbers, but it 
probably is an accurate sentiment in the sense that you don't 
want to leak a lot of natural gas. Natural gas is not difficult 
to contain. I mean, it--and you don't want to leak any fossil 
fuel into the environment, but you're right in the sense that 2 
percent of natural gas would be 40 percent of carbon dioxide 
being leaked into the air.
    Mr. McNerney. So how would you--I mean, how difficult is it 
to stop any leakage in the entire system?
    Dr. Singh. I think technologies do exist, right, so we 
don't see big natural gas leakages in houses where we heat and 
cook and eat----
    Mr. McNerney. Yes.
    Dr. Singh [continuing]. So the technology exists, and I 
think the industry has been fairly diligent in terms of 
preventing natural gas leakage, not necessarily by the most, 
you know, useful means. The one way that's done right now is 
just simply by flaring it and converting it into carbon dioxide 
and dumping that.
    Mr. McNerney. Right.
    Dr. Singh. So I don't see any technological challenges in 
terms of preventing that. There are technological challenges in 
terms of capturing it at the source and not burning it and 
using it for something else, but then there are chemists who 
are working on converting it at the source into other value-
adding chemicals such as methanol or--and people are even 
thinking of going all the way down to ethylene and then it 
becomes a precursor for the petrochemical industry.
    Chairman Lamb. Thank you. I'll now recognize Ms. Fletcher 
for 5 minutes.
    Mr. McNerney. Well, I haven't yielded yet, but I'll yield 
back, Mr. Chairman.
    Mrs. Fletcher. Thank you, Mr. Chairman. Thank you. And I'll 
actually follow up on that question because I am interested in 
some of the technology surrounding the conversion of methane. 
Can you finish maybe answering that question, or follow up 
about what you see as the most promising technologies for 
capturing methane, and how you think that that can address the 
concerns about methane emissions?
    Dr. Singh. OK. So I'm a mechanical engineer. I'm going to 
talk on the behalf of a chemist. This is actually technology 
coming out of a very brilliant chemist called Harry Gray at 
Caltech. He is I think well up into his 70s or early 80s, I 
don't know, and he's been working on catalytic conversion. So 
the idea between catalytic conversion is it's much less energy-
intensive than anything else. And he's been able to synthesize 
these new catalysts, which he creates in a plasma furnace. He 
tried to explain it to me, and I understood about 10 percent of 
it. But the idea is not only to convert methane, the idea is to 
convert methane, the idea is to convert carbon dioxide and get 
to the point where you're simply pulling these things out of 
the air and converting them into value-added hydrocarbons up 
the chain using electrocatalysis.
    Mrs. Fletcher. And what phase of sort of research and 
development is this, this concept that he's developing right 
now?
    Dr. Singh. I think he is maybe a few years from a desktop-
type prototype, so the idea behind these technologies is that 
they are very modular, and you could implement them at a lab 
scale, at a bench scale, on a skid path that gets rolled out to 
a pad and be deployed. So they're not--the science has been 
proven. The technology is being developed. And they're fairly 
simple beyond--once you have the catalyst figured out, the rest 
of the technology is fairly simple.
    Mrs. Fletcher. OK. Thank you. And I have a general 
question, kind of flowing from this for the panel. I know we 
have such limited time, but one of the things I was wondering 
about is how some of this technology and research is being 
developed, and how industry has innovated or is working with 
some of the researchers to address some of these challenges.
    Dr. Bonner. Yes, so as I'm representing industry, we work 
with universities quite often on a lot of the grants and 
funding that we've gotten.
    Chairman Lamb. Could you turn your mic on, Dr. Bonner?
    Dr. Bonner. I think I have, so sorry. Yes. So representing 
industry, you know, we do work with universities quite often on 
a lot of the projects. With ARPA-E, for example, we were 
working with Lehigh University and University of Missouri to 
address various fundamental aspects of the technology. And I 
would say probably more than half of the technologies and 
programs we work on do involve university support.
    Mrs. Fletcher. And, Dr. Webber, did you have a comment 
here, too?
    Dr. Webber. Yes, I was going to say that oftentimes our 
best advances from a society occur when there is collaboration 
across the different sectors, so we have industrial, academic, 
and government collaboration around projects, and that often 
happens, as Dr. Bonner mentioned.
    I think another aspect is to try to take these good ideas, 
develop, and commercialize them, and there's different ways to 
do that. Creating more effective tech transfer offices at the 
national labs, which has been underway for decades, and also 
improving those systems for universities to get technologies 
out of the lab and into the field is useful.
    The larger companies in the energy sector and water sector 
are really good at commercialization and scale-up. They tend to 
be less good at the innovation, so they tend to collaborate 
with universities or acquire companies who are innovative to 
get there. So there's room for that, and the more we 
collaborate, the better it goes is the short story on that.
    Mrs. Fletcher. Great, thank you. And, Ms. Zerrenner, this 
perhaps ties into some of your testimony that I was able to 
look at before I was here. In your written testimony you talked 
about coordination between the energy and water sectors, and 
said that we really need to update policies there. And so can 
you share your thoughts on how we can better kind of break down 
these silos between the energy and water sectors, encourage 
better planning between them, and work on some of these 
commercialization projects as well?
    Ms. Zerrenner. Sure. So a good example we have where the 
coordination really works is in San Antonio where the 
municipally owned water and electric utilities plan alongside 
each other. They attend each other's planning meetings. They 
know that each is each other's biggest customer, and then they 
recognize that and follow through with that. So, for example, 
we have at a wastewater treatment facility in San Antonio 
biogas capture and that uses that to power the wastewater, so 
that's on a very local level.
    But in the Federal system, understanding--and I mentioned 
this in the oral testimony. Understanding where the funding 
streams are across the Federal Government would be very 
helpful.
    Mrs. Fletcher. Yes.
    Ms. Zerrenner. At this point I don't--I haven't seen 
anything, and I--when I was in the stakeholder process with DOE 
on the energy-water nexus roundtables I talked about this as 
well, is that I haven't seen any across-the-government 
assessment or review of the different funding streams where 
they go into each, so it's--you're looking at it as a 
comprehensive view. So the whole idea of the energy-water nexus 
is it's a system, so if we're not looking at it as a system, 
we're not addressing the systemic challenges, so the funding 
streams is really important because that also ties in then to 
the work programs. So also you want to know where all the 
programs are within the Federal Government, but you also want 
to know where the funding streams are.
    And I understand that Committee process. You're going to 
have your Appropriations Subcommittee for water is going to be 
separate than Energy, but wherever those coordination--cross-
coordinations can happen, I think that's really key. And some 
places where we don't tend to think of plugging in like USDA 
(United States Department of Agriculture), they have a big part 
to play in the energy-water nexus space. They needed to be 
plugged into this, not just DOE, not just EPA, so we have USDA, 
USGS (United States Geological Survey). That's another really 
important player in this space. There are a lot of places where 
this happens, and sometimes they could be really small. We're 
talking also about health impacts when we're talking about 
energy and water, so there may be some HHS (Department of 
Health and Human Services) issues that need to come up, and 
looking at a comprehensive across-the-government view, you may 
also find places where there are gaps that you need to fill. So 
I think that's a really critical piece.
    Mrs. Fletcher. Thank you. And I yield back my time.
    Chairman Lamb. Before bringing this hearing to a close, I 
do want to thank each of our witnesses for coming all this way 
and appearing before us today. We really appreciate it.
    The record will remain open for 2 weeks for any additional 
statements from the Members and any additional questions the 
Committee may ask of the witnesses.
    The witnesses are now excused, and the hearing is 
adjourned. Thank you.
    [Whereupon, at 11:29 a.m., the Subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
